<html>
<title> - EXAMINING THE VOTING PROCESS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 EXAMINING THE VOTING PROCESS--HOW STATES CAN BUILD ON RECOMMENDATIONS 

                   FROM THE BAUER-GINSBERG COMMISSION
=======================================================================


                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE

                             ADMINISTRATION

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                 Held in Washington, DC, July 23, 2014

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet
                             www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
89-838                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                   COMMITTEE ON HOUSE ADMINISTRATION

   CANDICE S. MILLER, Michigan, 
             Chairman

ROBERT A. BRADY, Pennsylvania, Ranking Minority Membersissippi
ZOE LOFGREN, California              PHIL GINGREY, M.D., Georgia
JUAN VARGAS, California              AARON SCHOCK, Illinois
                                     TODD ROKITA, Indiana
                                     RICHARD B. NUGENT, Florida

                           Professional Staff

    Sean Moran, Staff Director
  Kyle Anderson, Minority Staff 
             Director


 EXAMINING THE VOTING PROCESS--HOW STATES CAN BUILD ON RECOMMENDATIONS 
                   FROM THE BAUER-GINSBERG COMMISSION

                              ----------                              


                        WEDNESDAY, JULY 23, 2014

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:33 a.m., in Room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
(chairman of the committee) presiding.
    Present: Representatives Miller, Harper, Rokita, Nugent, 
and Brady.
    Staff Present: Sean Moran, Staff Director; John Clocker, 
Deputy Staff Director; Bob Sensenbrenner, Deputy General 
Counsel; Yael Barash, Legislative Clerk; Erin Sayago, 
Communications Director; Kyle Anderson, Minority Staff 
Director; Matt Pinkus, Minority Senior Policy Advisor; Matt 
DeFreitas, Minority Professional Staff; Khalil Abboud, Minority 
Deputy Counsel; Thomas Hicks, Minority Senior Counsel; Mike 
Harrison, Minority Chief Counsel; Greg Abbott, Minority 
Professional Staff; and Eddie Flaherty, Minority Chief Clerk.
    The Chairman. I am going to call to order the Committee on 
House Administration's hearing on examination of our Nation's 
voting process and the recommendations that were released by 
the Bauer-Ginsberg Commission in January of this year. And the 
hearing record will remain open for 5 legislative days so that 
members can submit any materials that they wish to be included 
therein.
    The Chairman. And a quorum is present, so we will proceed.
    I certainly want to thank my fellow committee members for 
being here today to discuss this very important issue. And the 
purpose of this hearing is to discuss how States and local 
election officials can build upon the recommendations that were 
outlined in the Presidential Commission on Election 
Administration report, otherwise commonly known as the Bauer-
Ginsberg Commission report.
    And I certainly want to thank the two co-chairs of the 
Commission for coming today. And we appreciate your time and 
your attendance to this. And we appreciate your service as well 
to the 6-month study that you conducted to identify ways in 
which our State and local election officials can improve the 
voting process for every American.
    I was a former secretary of state in Michigan, the Chief 
Elections Official of my State, so I certainly understand the 
challenges. I like to think I understand the challenges of 
election officials and what they face each and every day. It 
was my duty then, as it is for other secretaries of state, to 
ensure each and every election runs smoothly, that the voting 
process is absolutely accessible and understandable to citizens 
of voting age, and most importantly, that the results were 
accurate, as accurate as possible, when we go to elect our 
public leaders.
    It was certainly all of our hopes that the Commission's 
recommendations would assist the States in useful and effective 
and nonpartisan ways so that every election official is able to 
meet their mission of a successful election. And since the 
administration of elections is inherently a State function, I 
was very hesitant then, as I am now, about Washington mandates, 
which is why actually, in full transparency--I mentioned this 
to our two witnesses--when the President created the Bauer-
Ginsberg Commission, I didn't believe that a new Federal 
commission was needed.
    However, as I looked at your report, I have to say that I 
was very--I don't know if I should use the word pleasantly 
surprised, but I was very encouraged that the report focused on 
utilizing good local governance over elections, and it made 
recommendations on different ideas that I think really can help 
locals improve upon their own voting process.
    So we certainly didn't want to have the Commission's 
recommendations be shelfware. We thought it was a great idea. 
And I talked to my Ranking Member about having this hearing in 
a way that we can hopefully amplify some of the recommendations 
that the Commission has made.
    It is certainly my belief that the primary role for Federal 
Government in election administration is not to dictate to 
local officials or to place mandates on them, but again simply 
to help in an advisory way so that State election officials can 
do their important work to make certain that every American 
citizen is able to cast their vote and make sure that their 
votes are counted.
    I will just give you one example from my time as Michigan 
Secretary of State. We actually in our State have a very 
decentralized type of election system, administration, to the 
extent that we have over 1,800 various local units, various 
election clerks that are responsible for administering 
elections there. Every one of them, previously to what we 
called a qualified voter file, actually had maintained their 
own voter registration lists. It wasn't uncommon to go into 
some small areas, and you would find the clerks had put their 
voter registration lists in a cigar box in their closet or 
something.
    But at any rate, Michigan is quite a large State. And what 
we did is we computerized it all. We melded it all together. 
And we now call it the Michigan Qualified Voter File. We 
actually eliminated over 700,000 duplicate voter registrations 
from the file when we were able to do that. We had quite a bit 
of pushback initially from using that kind of technology. It 
doesn't seem so high tech today, but at the time it was.
    And it has worked really great. It has been a great 
product. In fact, it was cited by the Ford-Carter Presidential 
Commission on Federal Election Reform as a national model back 
in the day. And many other States have certainly used something 
like that and have improved upon it as well.
    I mention that just because we did that without any Federal 
mandate. We did it without any Federal money. The State of 
Michigan determined that this was something we wanted to invest 
in to make sure that our State's election officers were able to 
accomplish their goal. So we did it ourselves. And many of the 
recommendations offered by the Bauer-Ginsberg Commission I 
think were great suggestions and ideas that the States can 
implement. And again, they can do so without the need for 
Federal financial assistance.
    This report offered a number of recommendations, best 
practices, practical suggestions, such as online tools to 
assist election officials with determining how many voting 
machines should be deployed in which area, depending on the 
need. Certainly every State and local voting precinct tries to 
continually improve on their efforts to maintain up-to-date and 
accurate voter lists, and resources and education materials on 
how and where to vote, and of course ensuring that their ballot 
resources are properly deployed. They hope to accomplish these 
things while also hopefully reducing some of the administration 
costs that are associated with making all of this information 
available and streamlining the process.
    We are all aware of the challenges election officers face 
when it comes to administering elections, but particularly when 
their budgets are facing constraints that force them to 
prioritize. However, clearly, the States want to have the best 
voting processes in place and one that fits best with their 
residents.
    The voting process is really not a one size fits all, so 
even the best-intended Federal mandates I think can backfire 
when the process used historically in various States does not 
fit with that mandate. Every State should always strive to 
utilize good ideas and procedures that work for them, but they 
are wise to listen to good ideas from other States that can 
help them improve.
    Today we are here to listen to our two witnesses on their 
experience with this Commission and what they learned from the 
various State and local election officials from around the 
country. And we are especially interested in hearing about what 
they have heard from election officials since the Commission's 
report was released, especially I think as we are thinking 
about the upcoming midterm election where many of the voting 
precincts will be in the spotlight again.
    And I will also just take one moment of personal privilege 
and say that I was very pleased that the President also put on 
your Commission an individual that in my humble estimation is 
the best election officer in the Nation, Chris Thomas, who is 
the Michigan director of state elections. He is widely 
recognized as certainly really a leader in this field. And I 
know you had an excellent Commission to work with.
    The right to vote is the foundation of the American 
democratic system, and the Framers of our Constitution tasked 
each and every one of our States with the immense 
responsibility of administering and protecting that right. And 
while we, the Federal Government, always seek better ways to be 
partners with the State, again we need to keep in mind their 
challenges and to avoid costly mandates that inhibit, actually 
could inhibit their ability to protect the integrity of our 
electoral system. And instead we need to find ways to alleviate 
their burdens.
    Preserving the integrity of our electoral process is 
certainly of the utmost importance, and I know that again every 
State and every election officer takes that role seriously.
    Again, I want to thank you for coming, the two witnesses. 
We certainly are all looking forward to your testimony. We have 
read your opening statements.
    And at this time I would like to recognize my ranking 
member, Mr. Brady from Pennsylvania, for his opening statement.
    Mr. Brady. Thank you, Madam Chairman. First of all, could 
we put another log on the fire? It is awful hot in here, isn't 
it? This is not one of the meetings we need to be too hot at. 
It is a good meeting.
    The Chairman. Particularly on the House Administration 
Committee.
    Mr. Brady. Yeah. We thought we should be nice and cool in 
here.
    But anyway, I would like to thank my friend Chairman Miller 
for holding this hearing today. Having an open dialogue is 
vital to solving the problems that plague our elections, and I 
thank the chair for calling attention to this issue of critical 
importance.
    I also want to thank our witnesses, Mr. Bauer and Mr. 
Ginsberg, whose determination and expertise are critically 
important to fixing our elections.
    Following the 2012 presidential election, President Obama 
set out to improve America's voting experience. In 2012, many 
voters, regardless of their political affiliation, were faced 
with unreasonably long wait times to cast their ballot. Other 
eligible Americans were disenfranchised altogether as a result 
of outdated voter registration policies.
    Clean, efficient, and accurate elections are the 
cornerstone of our democratic system of government. It is 
crucial that we assure that all eligible voters have full and 
unimpeded access to the ballot box. This is why I believe the 
work of the Commission was so important.
    I fully respect the autonomy of the States in administering 
their elections, but also believe that Congress, and more 
specifically this committee, has a duty to ensure no eligible 
voter is turned away for any reason. I will continue to 
advocate for equal access to the ballot box for all eligible 
voters.
    Once again, thank you, Madam Chairman, and I look forward 
to the testimony of our expert witnesses.
    And thank you for your participation not only in this 
hearing, but your participation again to making our election 
process work.
    The Chairman. I thank the gentleman.
    [The statement of Mr. Brady follows:]

    [GRAPHIC] [TIFF OMITTED] 

    The Chairman. I now recognize the gentleman from 
Mississippi for his opening statement.
    Mr. Harper. Thank you, Madam Chair.
    And thank you, Mr. Bauer, Mr. Ginsberg, for your work on 
this and for your service and for sharing the experiences and 
giving us much to consider.
    The election process is very dear to me, not just because I 
am an elected official, because it really embodies self-
governance and how we do things in this country. So I began 
working on elections and political campaigns as a college 
student, like many individuals. Before I came to Congress, I 
served as a county party chair for about 8 years, was one of 
those souls down in West Palm Beach, Florida, during the 
recount in 2000 as a Republican observer. So it is quite a 
process to watch and participate in.
    But I think it is important to participate in the election 
process, and we wish everyone would. I know from firsthand 
experience in running numerous elections at the county level 
that it is not an easy task. Sometimes we don't anticipate as 
heavy a turnout as it winds up being or misjudge where the 
turnout will be and misallocate voting machines. Machines 
break. Finding and training poll workers, who in my home State 
work about 16-hour days for not a lot of money, can be quite a 
challenge also.
    When everything runs smoothly, few people notice. But when 
a problem occurs, everybody screams and looks for the problems, 
whether they may claim fraud or corruption. I believe your 
Commission primarily grew out of concerns about long lines and 
some difficulties with voting in the 2012 election in what was 
really limited to a few jurisdictions. The assumption too many 
are quick to make is that some kind of voter suppression must 
have taken place.
    To me, long lines at voting precincts mean that a lot of 
people are voting, and that is always a very good thing. It is 
interesting how the media portrays people standing in long 
lines in other countries, whether it was in Iraq or Afghanistan 
or other countries, that those folks who wait in long lines are 
heroes, which they are. But long lines of Americans standing in 
line for a couple of hours is portrayed as a broken system.
    Now, this is not to say that we can't do better, and that 
we should, and that is why I think the focus of your report, we 
need to look at how we can make it easier for folks to vote. I 
am all in favor of improving the process. I am not in favor of 
weakening accountability. I have some concerns about early 
voting, and I worry about the integrity of electronic voting 
systems, both for voting and for recapping elections. There 
were allegations of a serious attempt of hacking of the 
electronic vote tabulation system during the recent Ukrainian 
presidential election by another foreign power in order to 
change the outcome. That is always disturbing.
    New technology is great, but we must have sufficient 
safeguards. And in my view, primitive as it may sound, there is 
no greater safeguard than a paper ballot.
    I appreciate the work you did on the Commission and the 
report. And again, thank you for your appearances today. We 
look forward to your testimony.
    And I yield back.
    The Chairman. Thank the gentleman.
    Any other opening statements?
    Let me introduce our witnesses, then. First, we have Robert 
Bauer, who is a partner at Perkins Coie. In 30 years of 
practice he has provided counseling and representation on 
matters involving regulation of political activity before the 
courts and administrative agencies, of national party 
committees, candidates, political committees, individuals, 
Federal office holders, corporations and trade associations, 
and tax-exempt groups. He served as the White House counsel to 
President Obama and returned to private practice in June 2011.
    In 2013, the President named Bob to be co-chair of the 
Presidential Commission on Elections Administration. He was 
general counsel to Obama for America and the President's 
campaign organization in 2008 and 2012. And he is general 
counsel to the Democratic National Committee.
    And our second witness, again the co-chair of the 
Commission, is Benjamin Ginsberg, who is a partner at Jones Day 
in Washington, D.C., where he represents a variety of clients 
on election law issues, particularly those involving Federal 
and State campaign finance laws, ethics and gift rules, pay-to-
play laws, election administration, government investigations, 
communications law, and election recounts and contests.
    He recently served, as we say, as a co-chair of the 
Presidential Commission on Election Administration. Prior to 
joining Jones Day in 2014, he served as national counsel to the 
Bush-Cheney Presidential campaigns in the 2004 and 2000 
election cycles and played a central role in the 2000 Florida 
recount. In 2012 and 2008, he served as national counsel to the 
Romney for President campaign, and he has also represented 
campaigns and leadership PACs of numerous members of the Senate 
and House, as well as to the national party committee.
    So we have two--talk about two experts in a very bipartisan 
way here before us today. I think this will certainly be 
interesting testimony.
    And I would now recognize Mr. Bauer for his opening 
statement.

   STATEMENTS OF MR. ROBERT F. BAUER, CO-CHAIR, PRESIDENTIAL 
  COMMISSION ON ELECTION ADMINISTRATION; AND MR. BENJAMIN L. 
    GINSBERG, CO-CHAIR, PRESIDENTIAL COMMISSION ON ELECTION 
                         ADMINISTRATION

                  STATEMENT OF ROBERT F. BAUER

    Mr. Bauer. Thank you, Madam Chairman, members of the 
committee, Ranking Member Brady. I am very pleased to be here 
with my co-chair, Ben Ginsberg. We have become a bipartisan 
traveling party on this subject. And I am glad to go first. I 
told your staff before we came, I am always pleased to be Ben 
Ginsberg's warmup act.
    I also would like to say one thing, Chair Miller, about 
Chris Thomas, because, oddly, I had pencilled in his name to 
the written testimony to say that he is, in fact, one of the 
finest election administrators in the country, and a member of 
our Commission who I think it is fair to say, and Ben will 
agree with me, performed outstandingly, and is an important 
part of the implementation of the recommendations of the report 
that in the division of testimony that Ben and I have agreed 
upon Ben will talk about.
    But let me just say very briefly--and I have submitted a 
statement for the record, so I won't duplicate it--but let me 
say a little bit something briefly about the approach that we 
took and also some of our experience with the positive 
reception of the report and how that is shaping how we look at 
what lies ahead, including the effort to implement this report.
    Our outstanding research director, Nate Persily of Stanford 
Law, was fond of saying throughout our experience with the 
Commission that we were working not so much on a report as on a 
project, on a long-term project. And we view the report, in 
effect, as having kicked something off with its publication; 
not ending the day it was published, but, in effect, opening up 
with its publication opportunities to work on these 
recommendations that are very, very important to us and how we 
perceive the success of what we have done.
    Now, of course, the origin of the Commission's work is 
fairly traced to the problem of long lines that obviously 
received a lot of attention when the Commission was 
established. But the Commission of course was charged with 
looking at a range of issues that election administrators face. 
And of great importance to us, and I want to stress it here 
today, is that it is important that we view election 
administration as a subject of public administration. 
Obviously, politics enters into this discussion all the time. 
But at bottom and throughout our work we tried to focus on 
election administration as a topic of public administration, 
and to look at the service that we provided our voters as very 
similar to the service that our best companies would provide 
their customers. We have to treat the voters with the same 
respect and hope to achieve on their behalf the same level of 
performance and efficiency.
    When we think about the problems that we encounter in the 
voting process, we know that any one problem we identify could 
have many sources. So if we think about lines, for example, 
there may be any reason, number of reasons why lines prove to 
be impermissibly or inappropriately long. That could include 
the design and administration of polling places, errors in 
voter registration lists, poor training programs for polling 
workers. There are a variety of reasons. So the problem has to 
be attacked at various different points.
    Throughout our consideration of the issues, we looked very 
hard at data. Of great importance to bipartisan election 
administration is to stay close to the facts, to the data, to 
the best understanding of how elections are administered and 
what goes wrong with elections. And that is why we were well 
served by the senior research director we had, both a political 
scientist and a law professor, Professor Persily, who helped 
guide the Commission to the best sources of information that we 
have about what reallytakes place in the conduct of elections 
and what really lies behind some of the problems that our voters 
confront.
    So with those few preliminary observations, let me just add 
a couple more.
    We heard at the outset of our work from a variety of 
sources, from election administrators around the country, that 
they were concerned that one size of reform did not fit all. 
And we understand that there is a concern with one size does 
not fit all, that it is possible that what works in one 
jurisdiction may not work in another. But we are confident, and 
I think this is true of all of the commissioners, that our 
recommendations are suitable for the vast majority of 
jurisdictions.
    All election administrators, as the chair well knows, as a 
former secretary of state, confront a similar set of 
challenges, from the registration of voters and the 
verification of eligibility, to polling place management and 
equipment acquisition, to the successful transmission and tally 
of the results. And we found that our administrators across the 
country, whom we heard from in hearings, in formal hearings, 
and also in the court of testimony that we elicited, all agree 
that there were fundamental responsibilities that election 
administrators engaged in that could be addressed with 
solutions of common application.
    Those administrators, we want to stress, I certainly want 
to stress, I think Ben would agree, deserve all the support 
that they can get. They are asked to perform at the highest 
levels, but routinely provided with inadequate levels of 
support, and in particular inadequate levels of resources. Our 
elections occur periodically in this country, but the issues of 
election administration receive generally only infrequent 
attention. And the Commission, while not making any specific 
recommendations about the level of resources required, did want 
to and did stress that at the end of the day States and 
localities do need resources to carry out the functions that 
they are engaged in.
    And this question of resources is deeply implicated in a 
second point that I wanted to raise out of the report before 
this committee, and that is the resources that will be 
required, the thinking and the planning that will be required 
to meet the challenge that we face in the next generation of 
voting technology.
    The Commission has described this as a looming technology 
crisis. It didn't mean to exaggerate, and I don't think it did 
exaggerate. Election administrators across the country, 
everywhere, Democratic and Republican, expressed concern that 
we are facing a major problem with transitioning from the 
technology currently in use to the technology that we will need 
in elections still to come. And we have to listen carefully to 
them. They are the ones who are putting on elections. They are 
the ones who are ordering the machines, testing the machines, 
using the machines. And that is what they are telling us.
    This importance of resources is matched by the very 
important question of how election administrators allocate the 
resources that they have. And here we tried to supplement the 
report that we issued with the provision of online tools that 
would assist administrators in the management of the polling 
place to avoid and anticipate long lines.
    The tools that the Commission recommended are still posted 
online and available on the Cal Tech-MIT Technology Project Web 
site. They are open source. They are available for improvement. 
And as Ben will describe shortly, we are going to continue to 
work with election administrators to make these tools widely 
available, to work with them, to improve them, and to try in 
other ways to be supportive of their efforts to address the 
lines problem.
    And finally, one quick point, because I see that my time 
has expired. The Commission's focus was on State and local 
election administration and the means of improving it through 
administrative reform and best practices. We didn't make 
Federal legislative recommendations. But we did hear testimony 
across the board from jurisdictions that there are Federal 
statutes that protect discrete populations of voters--military 
voters, language minority voters, disabled voters--that simply 
are not attracting the level of compliance and the success of 
compliance that they should.
    One notable exception is the MOVE Act, that affects 
military voters, which seems to have been quite successful by 
all accounts. But other statutes that we have confronted, the 
ones that I have cited, have not been similarly as successful 
as they might be in implementation. And in particular--and here 
I am channeling Chris Thomas, because nobody expresses this 
better, in a more informed way or, frankly, more tartly than 
Chris Thomas--we have a major problem with departments of motor 
vehicles across the country who are not attending successfully 
to their registration responsibilities under the National Voter 
Registration Act. And this is something that we hope will 
receive attention across the country.
    So the Federal Government has established an important 
presence in these areas and compliance is critically important.
    So with that, I would like to close by saying we are 
pleased with the reception of the recommendations. We hear 
continued offers to continue to work on those recommendations 
from State and local election officials. And where we go from 
here, this phase of implementation is something I would like to 
turn over to my co-chair, Mr. Ginsberg, to discuss further.
    And I would say before I do so, I am not surprised, but it 
was an absolute pleasure to work with Ben Ginsberg on this. And 
I would never say so privately, so I thought I would say so 
publicly.
    The Chairman. Thank you very much. We appreciate that, Mr. 
Bauer.
    [The statement of Mr. Bauer follows:] 

    [GRAPHIC] [TIFF OMITTED] 

The Chairman. And the Chair recognizes Mr. Ginsberg.

               STATEMENT OF BENJAMIN L. GINSBERG

    Mr. Ginsberg. Thank you, Madam Chair, Ranking Member Brady. 
Thank you for having us here today.
    We very much appreciate the opportunity to talk about the 
Commission and its recommendations and how we plan on 
implementing its best practices and advice we have for State 
and local jurisdictions.
    It was a pleasure to work with Bob. We did enjoy the 
opportunity to step out for a bit, bring our perspectives from 
being in the partisan trenches for many years. The members of 
our Commission, Chris Thomas and his seven colleagues, provided 
a great deal of expertise to us. Nate Persily was remarkable in 
the breadth of research. We held hearings around the country 
and numerous meetings with interest groups and individuals 
concerned about the process, and that helped inform the 
recommendations and best practices that we presented in the 
report.
    Two general points. First, Bob and I are both very proud of 
what is in the report, the way that we have tried to deal with 
the situations that State and local officials who put on 
elections, and attempt to ease the problems which serve as 
obstacles to duly qualified citizens being able to cast their 
votes. That was our mission and what we have tried to do in the 
report. We would urge you to read the report, and this summary 
of our testimony will touch on some of the highlights.
    There are no Federal mandates in the report. We believe the 
Commission came up with practical solutions for State and local 
administrators to make the voting experience better for all 
citizens. The report passed with bipartisan and unanimous 
agreement.
    Secondly, we were certainly acutely aware that the actual 
implementation of this or any report is the really hard part, 
especially in an area like election administration that is so 
decentralized in the our country. Thanks to the Bipartisan 
Policy Center here in Washington, there is an ongoing plan to 
implement the Commission's recommendations and best practices, 
which I look forward to describing in a moment.
    The area into which this report delves, elections and 
voting, is certainly one where there can be conflict between 
Republicans and Democrats. But it is also a subject where 
Republicans and Democrats can agree and do agree on the basic 
principle, that every legally registered voter has the right to 
be able to cast his or her ballot easily and without barriers. 
For that reason, there is a positive agenda of reforms that can 
be made in this area, and we believe that the report provides 
that blueprint.
    For the solutions, the Commission recognized at the outset 
that our elections are administered by approximately 8,000 
different jurisdictions, largely using volunteers who often 
don't receive proper training. As a result, achieving 
uniformity or Federal solutions that actually work in our 
elections has proven challenging.
    There are individual specifics included in the written 
testimony and of course in the report itself. But in terms of a 
positive agenda moving forward, I particularly urge you to look 
at long lines, a problem that should not exist, for which we 
provide practical solutions and recommendations. We found after 
our study that, in fact, the solutions, as Bob mentioned, are 
identifiable and solvable. And the report and the Web sites 
provide tools to be able to do that, as well as the practical, 
on-the-ground best practices that others who have faced this 
situation have recommended.
    Online registration and two programs that help the States 
check the accuracy of their voter registration lists against 
those of other States each received support across the 
political spectrum. Accurate voter lists is something that the 
right and the left agree is necessary, whether for the purpose 
of providing greater efficiency, more accuracy, cost savings, 
online registration, and the two programs are helpful 
ingredients to a positive agenda.
    Reducing the barriers to voting that Bob mentioned faced by 
military overseas voters, disabled voters, language minorities, 
is all an important part of enforcing laws that are on the 
books and doing the right thing for our citizens. And again the 
practical recommendations and best practices are included.
    The simple proposition is that, as Bob said, we do have two 
major things to deal with. One is the technology crisis. We did 
not meet a single State or local administrator who either was 
satisfied with the machines that their jurisdiction was using 
at the moment or saw a solution in what was currently available 
on the market or was pleased with the certification process 
that makes it much more difficult to be able to move forward 
with technological advances that have taken place in the rest 
of society.
    And the adequate physical facilities that communities rely 
on is often schools. Yet there are problems with using schools 
because of safety concerns. That is a conflict, the rights of 
voters and the safety of children, that should not be allowed 
to conflict. The report recommends having in-service training 
days on election day so that schools can be used. But that is 
something that State and local administrators, that we wish to 
try and enable them to achieve.
    In terms of the implementation, as I mentioned at the 
outset, it is really important to get the recommendations and 
best practices into State and local jurisdictions and being 
able to use on that level. We are particularly thankful, for 
that reason, to the Bipartisan Policy Center, which has agreed 
to house a program whose goal is to get the recommendations and 
best practices implemented by the States and localities.
    Specifically, the center has augmented its staff by 
bringing on two people very involved with voting issues, one an 
alum of our Commission, the other a former State election 
official. They will be working directly with States and 
localities looking for opportunities to implement legislation, 
looking for opportunities to go into some of the polling places 
with historically long lines to be able to implement the 
solutions to help that serve as a test case for others.
    The BPC project will also work on improving the 
certification process for new technology and look for 
legislative opportunities on online registration, legislation 
to ensure the place of schools as voting places, and other 
improvements that are mentioned in the report.
    With that, let me reiterate that there is a positive agenda 
with which Republicans and Democrats can move forward so that 
all legally qualified voters can cast their ballots without 
barriers that all agree should not be there.
    Thanks again for having us here today and letting us report 
to you on our recommendations, best practices, and how we will 
implement them.
    The Chairman. Thank you very much, gentlemen.
    [The statement of Mr. Ginsberg follows:] 

    [GRAPHIC] [TIFF OMITTED] 

The Chairman. Let me just start with a question. And I 
think it was really sort of the impetus for the President 
putting the Commission in place, really, was the long lines 
that we all watched. And I have to tell you, and I don't mean 
to always talk about my experience as secretary of state, but 
we all come from our own prism of whatever our personal 
experiences were. And we are looking at sort of the usual 
suspects of where these long lines were, because it wasn't all 
over the country, it wasn't in some of the precincts that had 
heavy, heavy, heavy voter participation.
    And in a State like mine that doesn't have either early 
vote or same-day registration or any of those kinds of things, 
it doesn't even have no-reason AV voting, I am not going to say 
we had no lines anywhere, but there was no reports of anybody--
I mean, what we saw on the TV that was happening in one State 
was really happening in one State, from what I would tell. 
There were a couple of other areas.
    I mean, I talked to some of our other election officials 
afterward and said, you can just see what happened there. They 
didn't have enough voting equipment. I mean, it is pretty 
fundamental things, I think, is my personal opinion. They 
didn't have enough voting equipment, they hadn't had good 
education, training for the precinct. The election workers that 
they had, as you say, many of them, most of them are volunteers 
or else they just hire them as they need. That is not their 
full-time job.
    They perhaps didn't take into account the number of 
registered voters in that particular precinct and had them put 
in the proper numeric order and all of these kinds of things. 
Again, I think it is sort of a fundamental thing.
    So actually, in the case of Florida, not to point on 
Florida, but I thought the governor of Florida did exactly the 
right thing, actually, by tasking their secretary of state with 
taking a look at what had happened there and making some 
recommendations, which they did. And I looked at that report, 
and it was very much along the lines of what I am talking about 
here, the kinds of problems that they found.
    But is there anything in particular that you think, as you 
have looked at that--I mean, again, talking about Federal 
mandates, you can't mandate good management, obviously--but 
what kinds of things we could help amplify the Commission's 
recommendation so that election workers who do experience these 
kinds of long lines, what can we actually do? Obviously, nobody 
wants to look at these very long lines.
    There was one individual in particular that I know the 
President pointed to as an elderly person who had to wait for a 
long time, and she was trying to early vote. And I was just 
thinking, why didn't they vote absentee or perhaps they could 
have some line workers come out and, for goodness sakes, offer 
her a chair or something? I mean, some of these basics kinds of 
things. Again, it is not really a Federal mandate.
    So I am not quite sure what we can do to assist in that 
area, other than pointing out these very basic things. And what 
is your, to either of our witnesses in regards to the long 
line, is there anything that was unbelievably unique that 
caused these long lines, other than what most election officers 
would recognize immediately?
    Mr. Ginsberg. It seemed to vary very much by the 
jurisdictions where there were problems, with some 
commonalities. But, again, when you have 8,000 different 
jurisdictions administering elections, uniformity is not one of 
those things that is going to come naturally.
    In the places where there did seem to be long lines, and we 
held a field hearing in Miami and heard from the administrators 
of most of the counties that had the line problem, part of it 
is administrative decision making, part of it is the facilities 
in which polling places actually take place. And part of it is 
just kind of what you mentioned, which is, recognizing which 
particular precincts are going to have a greater influx of 
voters because of new registrations.
    Even in the counties around the country where there were 
the worst lines, it was not at every polling place, it was only 
at some of the polling places, and actually a relatively few 
number of the polling places where there were long lines. It is 
a problem that should be dealt with.
    The resource tools that are at supportthevoter.gov and on 
the Cal Tech-MIT Web site that Bob mentioned provide a way that 
not only election administrators, but actually citizens who 
want to deal with the number of machines available, the 
historic voter flows, both in terms of raw numbers and when 
they occur during the day, can all provide that.
    The report also goes into commonsense solutions, like 
providing sample ballots to people beforehand so they can read 
the ballot before they go into the polling place and help with 
their decision. Line walkers who go around and spot problems 
while they are waiting in line before there are people who are 
actually going through the process and slowing everybody else 
down.
    Providing big central rooms where people can wait to vote. 
You go in, you take a number, and then you sit in a comfortable 
place so you don't have to stand on line outside, if the 
facilities like schools can accomplish that, are all part of 
the practical solutions that can occur.
    The Chairman. Mr. Bauer.
    Mr. Bauer. I agree with what Ben has said.
    You asked also as part of the question, who is helping 
them? And what are the relative roles, Federal Government, the 
States themselves in the initiative that you described to the 
Florida governor.
    And what I think this Presidential Commission attempted to 
do was to draw together the best learning and in some cases to 
encourage new learning about administrative problems that lead 
to long lines is one of the problems that we looked at and to 
give in a very uniform, very focused way, to give election 
administrators a way to think about the problem and the 
possible solutions.
    So, for example, we unanimously found that election 
administrators should have 30 minutes in mind as the wait time 
for voters, 30 minutes should be effectively the maximum, not 
that that is a goal that could always be achieved, because 
there will be circumstances in which, for reasons beyond the 
administrator's control, the line wait will be longer than 30 
minute. But in those cases, there ought to be contingency plans 
that the administrators can put into effect if they know that 
there is going to be a 30-plus-minute wait.
    And Ben is correct that the problem is a problem that is 
found in pockets around the country. But we found that the 
total number of voters affected in one way or the other by 
lines longer than 30 minutes or lines longer than an hour is 10 
million voters, and that is a significant number of voters and 
arguably could expand.
    And so what we attempted to do was, as a Presidential 
Commission, to take the best learning, encourage some new 
learning, and then through the implementation to push out, in 
complete cooperation with State and local election officials, 
as much of the best understanding of administrative practice as 
we possibly could, drawing on what the Election Assistance 
Commission has done over the years in counseling on issues 
like, for example, polling management and poll worker training, 
drawing in organizations like the one that Chris Thomas chairs, 
the National Association of Election Directors.
    And that is an important function, this function of 
providing a clearing house and an organizing center for the 
best possible learning about what to do to solve these 
problems. And we find in the implementation phase, and I think 
that Ben has described it, a very positive reception to an 
ongoing effort like this that brings together the best that 
both the Federal and the State and local initiatives can offer.
    The Chairman. Thank you. And I absolutely agree that the 
National Association of Secretaries of State that both myself 
and Mr. Rokita were former members of, I think he was the 
president one year, and also the National Association of 
Election Officers, et cetera, all of this ongoing education and 
things that they are discussing and helping the locals with, 
there is no second almost for that kind of a thing.
    I did want to also ask a question about the resources 
needed. You both mentioned about the resources needed. I know I 
sound like a broken record, back when I was a secretary of 
state. But back when I was a secretary of state, before I came 
to Congress, right at that time HAVA had been passed by the 
Congress, so I wasn't here when it was passed. But all of a 
sudden we had this huge windfall of dollars that was coming, 
recognizing that the Federal Government was about to send $4 
billion out to the elections officials around the Nation 
principally to upgrade their voting equipment.
    This had never been done before. I think it was, if we 
would have known the word TARP at the time, we would have said 
HAVA was like TARP for election officials. It was amazing that 
all of this money was coming.
    And I think the Congress, trying not to mandate, really 
didn't have much strings attached to it as far as the kind of 
election equipment that should be purchased or what have you. I 
mean, I remember, again in Michigan, my successor actually 
implemented it all. But we put in place--you know, we had over 
5,000 precincts in our State, and said you could only purchase 
either Optical Scan or Optech at that time. And we were going 
to have uniformity of the kind of equipment that we were going 
to have out there.
    You saw a lot of these States that were buying everything 
under the sun. I mean, there was no uniformity. And, of course, 
some of this election equipment is very interesting. And at 
that time with all the technology and everything, had all the 
bells and the whistles, you thought you wanted to have all 
these great computers. But, as you know, computers do break. 
And so no surprise that there were problems with election 
equipment that was purchased by Federal dollars.
    But now, all of these years later, equipment, you know, it 
has had its normal life expectancy. And I cannot imagine, with 
the Federal restrictions that we have on our budget now, that 
there will be another type of billions of dollars of spending. 
I mean, if it is for the State and the locals to run elections, 
how can the Federal Government be looked at as the ones that 
just gives them all the money for this.
    So it is I think incumbent on the locals as well to do some 
planning with investing in elections to make sure that they do 
have the money to purchase what is very expensive equipment and 
all of these kind of things.
    What was your thinking as the Commission talked to--did you 
have the feeling that there is an expectation out there in the 
country that the Federal Government will forevermore provide 
funds for election equipment or how was this looked upon?
    Mr. Bauer. Ben will be glad to have me answer that one 
first.
    What we did discover was election administrators certainly 
mourn the passing of HAVA funding, that there was money 
available for this and now it is very hard to come by. So there 
is no question that they are in a different position right now, 
which they find very, very difficult.
    And we did not attempt to say where the resources would be 
located. One of our charges was, as I mentioned in my opening 
statement, we were not to make Federal legislative 
recommendations. We didn't delve into the question of where the 
resources might be found.
    But without any question whatsoever, they have to be found 
somewhere, because, as you know as a former secretary of state, 
I mean, the equipment is expensive, there has to be money for 
repair and maintenance. But the acquisition costs alone are 
going to be very, very significant. And the entire process of 
identifying the best next generation of equipment entails 
costs.
    And so these administrators are in the first instance, and 
we heard a good bit of this, troubled that they are having 
difficulty communicating with their State and local elected 
officials on this topic. They find that they are last in line 
in every budgetary conversation, that these are priorities that 
are by and large shuffled to the bottom of the deck because, 
understandably, faced with very difficult choices, elected 
officials have other priorities to attend to, education and 
road repair and the like. And elections being periodic tend to 
be treated as something that could be dealt with later or, 
frankly, made to do without, made to do with less.
    And this, in the case of technology development here, and 
acquisition, is unsustainable over the long run. So I can't say 
that there are expectations that the Federal Government will do 
it or that the State government will do it or a combination of 
both. But the question is, where is it going to come from, 
because without it we are facing a real disaster.
    Mr. Ginsberg. I would say that there is a wish but not an 
expectation amongst the State and local officials that the 
money come from the Federal Government. But I don't think they 
expect that. And historically, with the exception of the HAVA 
influx, it has been a State and local responsibility.
    I would say that the bright spot out there is that 
technology, if it ever gets to catch up through the 
certification process, can help reduce the cost of systems. I 
mean, you now have these big, huge stand-alone systems that can 
only be used for elections. The move to electronic poll books 
to help out is one. There are software voting programs out 
there, not a paper ballot, for purposes of historic integrity, 
but it seems to be where you are going. That can be a much less 
expensive alternative for States.
    The problem is we have kind of tied ourselves into a knot 
on this whole process, that the lasttime there were a new set 
of certification standards was 2007, which was before there was 
such a thing as a tablet computer anywhere. And so the 
technology available has not caught up to voting systems yet.
    That is one way that things can help out. We have got to do 
something about the certification process so that new and 
improved technology can be integrated into the system before 
all machines start running out.
    The Chairman. Thank you very much.
    The chair how recognizes the ranking member, Mr. Brady.
    Mr. Brady. Thank you, Madam Chairman.
    The only thing I think is worse than long lines is no 
lines. It is like a double-edged sword. We worry about increase 
in voter participation. Make it easier. And then we have long 
lines that cause people a problem when it is time for them to 
vote.
    I have been doing elections too many years in the city of 
Philadelphia, which is a blood sport, by the way, and I have 
been fighting with secretary of states forever. You know, I 
understand that we can't have uniformity throughout the United 
States because States have their rights. But trying to get our 
State uniformity with the amount of people that are on the 
ballot and then they end up throwing ballot questions with 
``whereas'' clauses and people want to sit and read them, if we 
can get uniformity within the State I think it would be easier. 
There is no real need to have a ballot question or some other 
maybe offices that are way-down offices, that are important, 
especially important for the people that are running in them, 
but if we could have some uniformity throughout the State so 
that we don't have a long ballot on one primary and then in the 
general we have a short ballot.
    And just this past primary we had a major, major governor's 
election with a contentious primary. We had 17 percent of the 
people come out and vote, which is disgraceful, it is 
embarrassing for a major election for a governor. And it seems 
to me that if we can make it easier for people to vote, that 
would eliminate lines and make it easier for them to cast their 
vote, and that it maybe would help them to want to come out and 
vote because it is easier for them to do that.
    I understand and looked at all the Internet ideas. And I 
agree with Mr. Harper, maybe early voting isn't always the 
answer because there is always a fraud factor. Eyeball 
participation, identification, fingerprint, phone voting are 
all issues. It is a tough job that you have. And I can't think 
of two more qualified people that can hopefully come back to 
us.
    And I did read your report. I will also ask unanimous 
consent to insert the entirety of the Commission's report into 
the record.
    The Chairman. Without objection.
    [The information follows:] 

    [GRAPHIC] [TIFF OMITTED] 
\
    Mr. Brady. Thank you.
    And I did read your report, and it is an in-depth and a 
good report. But I guess, how do you implement it? How do we 
try to get people to buy in? There are people that like long 
lines and people that don't. But what they don't understand is 
that we are still infringing on people's rights, ensuring they 
have the ability, making it easier for them to vote. And by 
making it easier for them to vote, we can increase the voter 
participation, for whatever, or whoever they are voting for.
    So I guess I just support what you do. I don't have a 
crystal ball, nor do any of us have a crystal ball to know what 
we could possibly do. There are things out there, there are 
things that we can implement, hopefully, to make it happen. I 
don't ever have a problem with long lines. We seem to be okay 
with long lines. It is inconvenient. But when we have long 
lines, we have participation, so that doesn't really cause me a 
problem as much as no lines. That has been my problem. So I 
commend and appreciate what you do.
    I would also like for unanimous consent to insert, in the 
entirety, to insert a letter from the Federation of American 
Women's Clubs Overseas into the record.
    The Chairman. Without objection.
    [The information follows:] 

    [GRAPHIC] [TIFF OMITTED] 

    Mr. Brady. I appreciate it, Madam Chairman.
    And I guess I don't have any questions because I am really 
looking for answers. I think you have done the best that you 
could do.
    And I would like to also real quickly piggyback on what our 
chairman said. Is there anything that we could do? Is there 
something we could do as our committee and in our positions 
here, whatever resources you may need, whether it be 
intelligence, whether it be funding, whatever we could do to 
try to make these long lines shorter and make these no lines 
more participative.
    I appreciate it. Thank you.
    The Chairman. Chair now recognizes the gentleman from 
Mississippi.
    Mr. Harper. Thank you, Madam Chair.
    And thank each of you for your comments. I think we are all 
in agreement that everybody who wants to vote, who is legally 
entitled to vote should be able to vote. And those long lines 
create a sense of excitement on election day, and it is 
something that is very special.
    And having dealt with elections certainly on a county 
level, every election, no matter how well you plan, how well 
you train, there is going to be some confusion. And it may be 
as simple as the problem of having a split precinct where 
sometimes, despite your best training, they don't know which 
ballot to take. So we see those issues that go on from time to 
time, too.
    And early voting, what we see is, yes, you can say it may 
ease the long lines. But I have had many people in States where 
they have early voting that say things happen during the last 
week or two of an election that may change a mind or new 
information. And so you lose that to go up to the election day, 
which sometimes is a concern for me.
    And certainly I spoke in my opening statement about how 
important it is to have integrity and accountability of 
elections. Election day is a special day. It is something that 
I think as Americans we like that excitement. And I certainly 
understand the purpose of early voting. Certainly increasing 
voter participation is an argument in favor. But it does 
concern me that that early voting can take away from election 
day itself.
    So if one accepts that election campaigns serve a valid 
role, both to influence and educate voters over a relatively 
short period of time, then early voting can shorten or even 
subsume rather than enhance that role. Could each of you 
comment on that? I will start with you, Mr. Ginsberg.
    Mr. Ginsberg. Sure. Early voting is interesting to look at 
from a nationwide perspective, because there are regions of the 
country that engage in early voting a lot more than other 
regions. New England, for example, does not believe in it, much 
for the reasons that you state about the sense of community.
    And there are different types of early voting. And absentee 
ballot is early voting. That actually is where there are more 
instances of fraud. In-person early voting is still eyeball-to-
eyeball contact, so not as objectionable from the fraud and 
security angle.
    I think overall there is now no-excuse absentee voting in 
27 States around the country, pretty evenly split between 
Republicans and Democrats in positions of authority as election 
officials in the States, and early in-person absentee balloting 
in 32 States, again pretty evenly split between Republicans and 
Democrats.
    To us, that reflected something that the voters wanted and 
asked for in those different States. And the State and local 
officials, without a Federal mandate of any sort, implemented 
it in their States.
    I share your personal concerns about election day being a 
special day, but I have also seen from this that both 
Republican and Democratic State and local officials alike have 
decided that early voting is something that their citizens are 
demanding and they have implemented it.
    Mr. Harper. Mr. Bauer.
    Mr. Bauer. I agree with Ben that what we are dealing with 
here is voter expectation. Voters want voting to beginto mesh 
with the way they live their lives generally. They live their lives a 
certain way, and our voting system in many respects lags behind their 
expectation in the efficiency with which it is delivered and the ease 
of access that it offers. And so I think that election officials around 
the country, Democratic or Republican, are under tremendous pressure to 
offer multiple forms of voting before election day.
    So I think that the way we looked at it is essentially that 
voting is special, that is a special act, but it cannot be, in 
light of voter expectation, crammed into a single day, Tuesday, 
any longer. That is not what voters expect, and that is not the 
message they are sending to their elected officials.
    Mr. Harper. I want to thank each of you for the many, many 
hours you have spent on this. And we have I think some common 
goals that we can work towards. And so thank you for all of 
your hard work.
    And with that, I yield back.
    The Chairman. I thank the gentleman.
    And before I recognize the gentleman from Florida for his 
questions, you were talking about early vote. I know the entire 
Nation is always looking at New Hampshire, whose motto is 
``Live Free or Die,'' to Dixville Notch. Every Presidential, 
they go to Dixville Notch, where there are eight registered 
voters. They don't have early vote. But it is an interesting 
thing. We all wait to see what Dixville Notch is going to do 
there with their voting.
    At this time the chair now recognize the gentleman in 
Florida.
    Mr. Nugent. Thank you, Madam Chair.
    And I certainly hope that Florida is not in the limelight 
again in regards to voting issues. We kind of have been that 
way over the last few election cycles. But I think that the 
governor recognized the fact that some policies that were put 
in place weren't working, and that he tasked the secretary of 
state to come up with a report, which he did in February of 
2013, much to the same conclusions that you all have come up 
with.
    And Florida does early voting, absentee voting, early 
absentee voting, I mean, in-face absentee voting, I guess it 
is. And the number of voters turning out, though, still seems 
to lag behind where it should be, even though we have put in 
place--like on early voting. Part of the problem was that they 
had to have it at either--it had to be a supervisor of 
elections office or substation-type office, annex office. And 
they have expanded that now to a number of community buildings 
that early voting can take place.
    I mean, how do you get people to come out to vote? And I 
think that is the question that Mr. Brady was asking. I would 
rather have people in lines voting than nobody voting or 
underutilizing the precincts that are put up.
    We talk about convenience of voting. I think we have made 
it really convenient. It would be interesting to see what 
happens in this election with the changes that were made in 
2013. But I am not optimistic that is going to increase the 
number of voters coming out to vote.
    So, I mean, do you have any thoughts on that? As you went 
through this process did anything come forward? I mean, I have 
heard about convenience, but I don't know how else to make it 
more convenient.
    Mr. Bauer. I suppose it is fair to say that all of the 
Commissioners have asked, would have heard and would believe 
that there are a variety of factors that bear on turnout, and 
that the one thing we could do is to address one factor we hope 
wouldn't bear on turnout, and that is that there would be 
maladministration of the electoral process, and that 
frustration with access would be one of those factors. We 
wouldn't say for a moment that if you remove all of those 
barriers, that we would predict that somehow turnout would rise 
up to the levels that you would like to see and that we would 
like to see. There are other factors that certainly are going 
to bear on turnout, and so removing those administrative 
obstacles would not be sufficient themselves. But here is one 
thing you wouldn't want to hear from voters, that they had 
wanted to vote, and somehow they couldn't. They couldn't 
because their name was not on the rolls, or they couldn't 
because they were in line for 3\1/2\ hours, and their child 
care was no longer available, so they had to peel off from the 
line and couldn't vote any longer. Those things you wouldn't 
want to hear.
    So just in that one sense, that is what we were focused on, 
but certainly it is true there are a variety of reasons why we 
have different turnout levels in different types of elections. 
It varies by State, and it is a complex question to which we 
can only make the limited contribution we hope to make with the 
recommendations in this report.
    Mr. Nugent. One of the things that I worry about as you 
move more into technology in regards to voting is the ability 
to compromise that. We see this across the board, whether it is 
Target or whatever. There are ways to access information, and 
what you worry about is that is massive fraud that could be 
perpetrated. So I want to make sure that as we move forward on 
the technology end of it, that we actually have the fraud 
protection in place, because we use these things all the time 
for a lot of things that we think we are safe on, whether it is 
transactions with banks, whatever else. You know, we tend to 
trust that, you know, we are safely doing it, and what we are 
hearing is that that is not necessarily the case. And so I 
worry that as we move forward in the technology end of it as it 
relates to elections, that we really have the ability to 
protect those, A, results and those voter rolls from fraud.
    Mr. Ginsberg. The Commission certainly came to agree with 
you on that. I would say that among the more robust debates we 
heard was the technology security debate, and for purposes of 
the report, we came out in favor of online registration and the 
use of electronic poll books in thepolling places just because 
it is much more efficient and just as accurate as mounds and mounds of 
paper to check people in in a much quicker way. But we certainly did 
not express an opinion on voting online, because the balance of the 
debate was that we are just not ready for that yet.
    Mr. Nugent. Cybersecurity would obviously be an issue. You 
know, we are being attacked by hackers from all over the world. 
Can you imagine some of the state actors that would love to 
influence an election, particularly a national election would 
be very tempting to them, I would think.
    And, Madam Chair, I yield back. Thank you.
    The Chairman. Thank the gentleman.
    The chair now recognizes the former secretary of state from 
Indiana Mr. Rokita.
    Mr. Rokita. Thank you, Madam Chair. I appreciate that 
recognition, and thank you to both you gentlemen for your 
leadership. It is greatly appreciated.
    I have been saying for years that the problems associated 
with Florida's election really had nothing to do with 
secretaries of state or local election officials, but really it 
was sheriffs of the State that were the problem.
    Mr. Nugent. If the gentleman would yield on that.
    Mr. Rokita. Very briefly.
    I associate with the gentleman. I mean, as Secretary of 
State, I often had this question. You are almost to the point, 
and I am being facetious, of course, here and embellishing, but 
you can roll out of bed and vote, and yet voter turnout doesn't 
go up, and that is because we have a cultural issue. People 
don't value perhaps the experience, and we have to ask 
ourselves why, and it seemed like that might have been beyond 
the technical nature of your Commission.
    In fact, and I know you shied away from photo ID, and I 
don't want to get into that debate here, but I often use that 
as an example of how it would--in Indiana it actually increased 
voter turnout when we went to that, because people saw that the 
administrators valued the process enough to say, hey, you know, 
we are going to ask the same kind of questions we ask when you 
go to a video store, which we used to do at the time, or when 
we get on a plane and do those same things. And when I think 
constituents and voters and the public see that we place those 
kind of--that high level of interest and value in the process, 
you will see more turnout.
    But speaking of value, in the technology section I didn't 
see, and maybe it was somewhere else--I did not see that you 
mentioned voting centers as a solution to this. Was that talked 
about, and, Ben, you are nodding your head?
    Mr. Ginsberg. We did talk about it. We talked about them 
favorably. They seemed to be an innovation that is working in a 
number of States. Particularly States that have adopted early 
voting have gone to voting centers.
    Mr. Rokita. There is no wrong place to vote, so if there is 
a big line on one side of town for one reason or another, you 
can immediately start through the social media and everything 
else, and through apps, redirect people. You have got to use 
technology the right way to make sure it is secure, make sure 
your coworkers can fairly critique and properly challenge a 
voter. But the idea that we can use technology now so there is 
really no wrong place to go, I think, is very valuable.
    Secondly, Mr. Bauer, thank you for your work again. You use 
the example where the max shouldn't be more than 30 minutes to 
wait in line, and then you said unless there are some things 
outside of our control. What are examples of what is outside 
our control?
    Mr. Bauer. An example, and we heard this from election 
administrators, is that the polls open, and there are already 
700 people waiting to vote. They have been there for an hour or 
so waiting for the polls to open. They wanted to vote early. Or 
in the early afternoon, there is a get-out-the-vote surge on 
one side or the other, and seven buses pull out, and voters 
start coming out to vote. So that would be a challenge for 
administrators, that over that period of time, there is likely 
to be a build-up of voters.
    Mr. Rokita. Unless you had vote centers, which is in our 
control.
    Mr. Bauer. There are a variety of ways of addressing that, 
including vote centers, but in a case where they realize that 
they are looking at longer lines, there are steps that they can 
take. They need contingency plans so that the problem doesn't 
mushroom. And our only point by setting up the 30 minutes was 
to establish a framework for them to think about how our voters 
experience the voting.
    Mr. Nugent points out we have problems with turnout. We 
don't want voters to walk away thinking that either the system 
isn't functioning properly, or it is not functioning properly 
because no one is paying attention to their own interests and 
their own requirements for voting. And so as long as the voters 
perceive, and there is evidence to suggest this, that the 
administrators are responding to the problem--they may not be 
able to deliver a 7-minute wait time, but they are clearly 
responding to the problem--that is reassuring to the voter. It 
will enhance voter confidence.
    Mr. Rokita. Like at a grocery store when you open up a new 
line or something like that.
    Mr. Bauer. Pardon me?
    Mr. Rokita. Like at a grocery store when you open up a new 
line.
    Mr. Bauer. Absolutely correct.
    Mr. Rokita. That goes to your point about how we live our 
lives today and what we can do to adapt.
    Mr. Bauer. Precisely.
    Mr. Rokita. I completely agree with that.
    My question turned more on, you know, what is really 
outside our control, and what is really inside our control, I 
guess, is what I was trying to get from you. Do you have any 
other examples? What is an act of God that we should, you know, 
reasonably expect could cause----
    Mr. Bauer. Power--well, I am not sure I would refer to a 
power outage as an act of God.
    Mr. Rokita. Act of the EPA.
    Mr. Bauer. A separate hearing no doubt. I would imagine a 
weather event with flooding, a power outage. One of the things 
that we addressed in our report, for example, is that there 
are, in fact, real weaknesses in contingency planning for 
natural disasters. You know, that has been taken up, by a way, 
by a task force of the National Association of Secretaries of 
State that has been looking at that. But we need election 
administrators to have a playbook that they can turn to when 
administrative problems beset the polling place.
    Mr. Rokita. Understood. Thank you.
    Madam Chair, I know my time is expired, but I notice that 
the red light has been on for others, so just let me finish 
with one more question now.
    In Florida, wasn't it true that--and I apologize if you 
testified to this already. In Florida in 2012 in the general 
election, weren't there 11 or so constitutional amendments on 
the ballot?
    Mr. Ginsberg. There were.
    Mr. Rokita. Yes, right?
    And everyone reading those, like the ranking member says--
--
    Mr. Ginsberg. I am not sure everyone was, but certainly 
some people were.
    It does make sense for States, and we heard this from 
numerous State and local officials, to recognize that the 
heaviest turnout is going to occur in Presidential years, and, 
therefore, if you are going to put constitutional amendments on 
a ballot, the general election in a Presidential year is 
probably not the right time to do it.
    Mr. Rokita. Or get ready to spend a lot more on an election 
so that you can properly size the process for the----
    Mr. Ginsberg. Well, the other recommendation that we have--
--
    Mr. Rokita [continuing]. Or stop being a referendum State. 
These were constitutional amendments, but other States might 
have the same kind of problem if they are a referenda State, 
right?
    Mr. Ginsberg. Providing sample ballots so that people can 
read all those before they go into the polling place and not 
take up the line is another way to deal with the situation 
where you do have a lot of constitutional amendments on the 
ballot, so you don't have to read it for the first time while 
you are waiting.
    Mr. Rokita. I yield 30 seconds to the gentleman from 
Florida, and my time is expired. Thank you.
    Mr. Nugent. I can talk firsthand in regards to the 
constitutional amendments that were on the ballot. They did all 
the things that you talked about. Supervisor of Elections 
office sent out ballots early, sample ballots, all the 
constitutional amendments that was in the press.
    But it is so overwhelming, and I think the State of Florida 
has recognized that, and they changed the law in regards to 
limiting the amount of information on a constitutional 
amendment to 75 words, I believe, but also limiting the number 
of initiatives that can be on a ballot, because that was just 
overwhelming in regards to voters, because even if you have all 
that preinformation, you still get there and you pull it out, 
and you go, hold on a second, I want to read this one more time 
before I cast my vote. And a lot of folks were doing that, 
because, you know, I saw it when I went to vote. It was 
holding--it was gumming up the works, let's say. And I think 
States need to be cognizant of that. And I think Florida has 
finally figured that one out. Like I said, I hope Florida is 
not the poster child of election issues in the future, but as 
it is still a rapidly growing State, we do have our growing 
pains.
    So I want to yield back and thank the gentleman from 
Indiana.
    The Chairman. Thank you.
    I am going to recognize myself for a second round of 
questions here. And, you know, just one thing that Mr. Rokita 
was mentioning or saying about an act of God or various things 
that happen that is outside-the-box challenges of election 
officials. I was just thinking about when Sandy happened and 
what happened in New Jersey. They actually had a very 
successful election. That was unbelievable, the challenges.
    And one personal experience. We all remember where we were 
on 9/11. Many cities were having their election that day, 
including the city of Detroit, and, of course, New York 
actually was having their election. They cancelled their 
election that day.
    But in Detroit I was down at the voting precincts with 
Chris Thomas. We are talking about Chris Thomas, and we went in 
the first voting precinct. They had the TVs on. You watched 
that plane go into the first tower, and like everybody else we 
thought, well, what is that? Was that an accident, what 
happened, et cetera. And then by the time we got to the second 
voting precinct, the next plane came into the second tower.
    And Chris Thomas and I went out and sat in his car, because 
he was driving around that morning, and we sat there and looked 
at each other and said, good Lord. Should we cancel the 
election? Who knew, right? We called the mayor of Detroit. They 
were closing the Ambassador Bridge. They were closing the 
Windsor Tunnel. You are wondering about people being out that 
day or whatever, but I just remember him and I looking at each 
other thinking if there is anything that sets us apart from 
these--I won't use the word that we thought about it that day--
it is our democracy and our ability to vote. And we are going 
to carry on with the elections. But we weren't really sure if 
that was the right call or not at that time, but it turned out 
all right.
    But some of the things, the challenges that election 
officials do deal with each and every day, it is an amazing 
thing.
    I just have a question. I am going to pick up on what 
everybody has talked about, the long lines and everything. I 
remember when I first saw this Commission being a construct of 
the Commission, if the President is smart, he will put somebody 
from Disney on there, because nobody does lines better than 
Disney anywhere in the world. And you did have somebody on 
there, and I think the Commission went down andvisited Disney, 
and you even have a term, the ``queueing theory,'' I believe it is 
called, getting in the queue, in the lines, and customer service, et 
cetera, et cetera.
    Is there anything that you really found from Disney that 
you thought could have application to the line situation, the 
long-line situation?
    Mr. Ginsberg. I think our visit informed us that the whole 
field of industrial engineering which deals with queueology and 
lines really has a lot to offer election officials. And, in 
fact, Chris was among those who told us about this, that there 
are industrial engineers in city and State government who don't 
do things around helping the polling places in their 
jurisdictions with problems, but certainly could. So I think 
that we were greatly informed by that.
    There are also just kind of tricks of the trade that we 
saw, things like informing people of how big the lines are so 
that you can sort of gauge what the best time to vote is. We 
did have a revelatory moment in Dumbo's Flying Circus actually 
where it got a lot of 5- and 6-year-olds, who you don't want to 
put standing in line for 30 minutes. So rather than that, you 
can go up when you first get there, get a time that you will be 
able to use the ride, and then there is a big playground where 
you can just sort of set 5- and 6-year-olds loose. Now, that is 
a--to take that to a voting center, that would be the central 
place where there are chairs. So you would go in, see how long 
the line is, be told an approximate time to vote, and then be 
able to vote in comfort, something like a jury room while you 
are waiting to get called for jury duty. That is the kind of 
practical solution that----
    The Chairman. Like the FastPass or whatever they called it 
in Disney.
    Mr. Ginsberg. Or FastPass.
    The Chairman. Mr. Bauer.
    Mr. Bauer. Yes. We were really struck by what we saw of 
Disney's constant reevaluation of how well they are doing. That 
was very inspiring to the election administrators that they 
were continually thinking through what they had done before to 
make the experience a good one for their customers and how they 
might still improve upon it. It is just a continuous effort on 
their part to think through by close contact with their 
customers. They survey them regularly and intensively how they 
can make this experience work best for them, reduce the lines, 
and make sure the problems when they are detected are 
addressed. And so, yes, it was an example again of how powerful 
sound administrative practice can be.
    We also, we did spend a day there. We were a little late 
leaving because it was difficult to peel Ben Ginsberg away from 
the souvenir stand.
    Mr. Ginsberg. Let me say that I thought Bob did amongst his 
best thinking wearing mouse ears.
    The Chairman. All right, gentleman. We are going to get 
back to a serious question here.
    You know, this committee has had some hearings about 
military vote. And you mentioned about the military vote, and I 
think we all agree that certainly the brave men and women that 
are our ambassadors for liberty and freedom and democracy need 
to make sure that they have the ability to vote conveniently, 
and that their votes arrive in time to be counted accurately, 
et cetera.
    We have talked to the Department of Defense through FBAP 
and other types of things, you know, really trying to 
understand what they have done to try to expedite and improve 
all of that kind of a process. What is your Commission 
recommendation on something, again, that we could really help 
amplify the message to the State and local election officials 
in regard to military vote?
    Mr. Bauer. One of the more positive messages we heard, and 
I touched on this in my opening statement, is that the 
Congress' persistent attention to military voting issues over 
the years, and we had testimony about it over a very long 
period of time, the different statutory enactments that 
Congress has worked with in trying to improve the military 
voting experience has paid off. And there was widespread 
agreement that the MOVE Act, which significantly improved the 
delivery of ballots to military voters in time for them to be 
able to participate in the election, has worked very well.
    Having said all of that, the challenges there are really 
significant, and we can see opportunities for the Federal 
Government to continue to look at the effective circulation, 
for example, of registration information to military voters to 
make sure that voters actually have what they need in the way 
of information about how to participate. There are offices, for 
example, on bases that are meant when the onboard military 
personnel--meant to describe for them the registration 
opportunities and give them the means to register, and there 
was some suggestion in the testimony, significant suggestion in 
the testimony, that these are not being staffed as effectively 
and not performing as effectively as they might.
    So there is certainly room for Congress to continue to 
attend to what it has done here, kind of a legal framework it 
is set up for here, because as always, the success of these 
lies in the details, and I think the details are going to 
require Congress' continued attention.
    Mr. Ginsberg. On the State and local level, if you are 
serving in the military overseas or just living overseas, your 
point of contact with voting is going to be your State or 
county Web site, really, from the secretary of state or the 
county election official. There was great variation in terms of 
the quality and usefulness and user-friendly nature of those 
sites. So there are some best practices that we have suggested 
and examples that we have pointed out of sites that seem really 
good because members of the military and people living overseas 
will be able to use them more efficiently if they are up to 
speed.
    The Chairman. Just one final question or perhaps comment, 
because Mr. Rokita and I actually introduced a bill called the 
Voter Registration Efficiency Act. Back in Michigan we really 
were sort of the genesis of motor voter, because we were one of 
three States in the Nation where the secretary of state who did 
the elections also did the motor vehicle administration, so we 
had all the databases. And you are much more likely to change 
your registration, or become registered to vote initially, or 
change your voter registration address if you are coming in to 
do a driver's license change than you are perhaps to go to your 
local voter registration place and change it.
    So in Michigan we always had, I think, always in the 90 
percentile of everybody who was registered to vote--or eligible 
to register to vote were registered to vote, but we never did 
any better than the national average in participation either. 
So, again, for all kinds of reasons, the same kind of reasons 
every State has, I suppose.
    But one of the things is we, of course, want to make sure 
that nobody votes more than once, even in different States. And 
the thing that really brought this to our attention, there was 
a lady that was running for Congress actually from Maryland a 
couple of years ago who voted twice in two different elections 
in two different States, and subsequently her nomination did 
not go so well when that came to light.
    But at any rate, there are a number of people, probably not 
through negligence--just because we call them snowbirds in 
Michigan, right? Maybe they are in Florida, or maybe they are 
in Arizona or wherever they are--that don't change their voter 
registration, but register to vote in a new State. We were 
looking at some examples where there, you know, could be 
hundreds of thousands just in one State of individuals who are 
registered in more than one place.
    So, anyway, our legislation just said if you go to a State 
to register, the DMV, or the secretary of state or whatever it 
is in that particular State would ask you, are you registered 
to vote in any other State? Just ask that simple question, 
which we thought could really weed out. But we had a little bit 
of pushback from AMVA, from the Association of Motor Vehicle 
Administrators, because they said, listen, this registering to 
vote is not--that is not our job here. And they were concerned 
about all of that.
    But I do think that--I am not sure if your Commission--I 
guess that is my question: Did the Commission look at anything 
like that, talking about utilizing databases to be able to weed 
out duplicate voter registrations, or do you think that we are 
on the right track with thinking about that kind of 
legislation, or would that be helpful, or did you look at it?
    Mr. Ginsberg. We did talk about it. Certainly urging States 
to tie into voter registration databases with the motor vehicle 
databases will make changes of address problems that occur on 
voter rolls--would reduce it tremendously. And that is 
something we do talk about and recommend, really led by Chris 
Thomas, who did talk about the Michigan experience.
    We also urge States to join two programs that exist which 
do compare their databases. There is the Interstate Voter 
Crosscheck Program that was started in Kansas, and the ERIC 
Project that was originally funded by Pew. And I think it is 
now 29 States belong to the Interstate Crosscheck Program, and 
I believe it is 11 belong to the ERIC program. Those are both 
complementary interchanges of databases designed to stop 
precisely that. So it both serves to stop duplication of voter 
registrations in multiple States, and provides a much more 
accurate list of eligible people who are not registered to vote 
so that they can be contacted to register.
    Mr. Bauer. I completely agree with Ben on that. I think the 
list exchanges that we endorsed we endorsed as fulfilling a 
variety of purposes from preventing the problem that you 
identified to also identifying voters eligible to vote who 
could be encouraged to vote and hadn't been.
    The Chairman. Thank you very much.
    Ranking member have any other questions?
    Mr. Brady. One real quick statement. We are talking about 
elections. I want to thank my friend from Florida for educating 
me. I didn't know what a chad was. I thought it was Chad 
Everett, was the only chad I know. There are dimpled chads, 
pregnant chads, hanging chads. Thank you, and thank your State 
for that.
    The Chairman. Any other questions from the gentleman from 
Florida?
    Mr. Nugent. I will pass.
    The Chairman. Gentleman from Indiana.
    Mr. Nugent. One last thing.
    Thank you very much for visiting Disney. Hopefully you 
spent a lot of money, because the State of Florida really does 
appreciate that. Thank you very much.
    The Chairman. It all emanates in Florida, you know?
    I certainly think I speak on behalf of the entire 
committee. This has been a really interesting hearing, and, 
again, we appreciate both of you taking the time to come into 
the hearing today and testify and answer the questions, and 
certainly for your service, as we all have said, on the 
Commission. It is very good work, and we are looking forward to 
trying to help amplify the message and the recommendations, et 
cetera.
    I know you mentioned, I think you called it the Bipartisan 
Policy Center that is working with the local election 
officials, so if there is something that we can do to assist 
with them, we certainly want to be able to do that and look 
forward to your suggestions and input on that.
    At this time, without objections, I would mention that all 
Members have 5 legislative days to submit to the chair 
additional written questions for the witnesses. We would ask 
the witnesses to respond if they can do so so that the answers 
may be made part of the record.
    And with that, the hearing is adjourned. Thank you.
    [Whereupon, at 12 p.m., the committee was adjourned.]

                        <all>


</pre></body></html>
